BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that the original
copy of the foregoing Brief of Amicus Curiae National
Association of Parents, Inc. d/b/a ParentsUSA in
Support of Petitioner in No. 20-618, Kelly Georgene
Routten v. John Tyler Routten, was e-filed and sent via
Three Day Service to the U.S. Supreme Court, and was
sent via Three Day Service and e-mail to the following
parties listed below, this 7th day of December, 2020:
Robert Daniel Gibson
Stam Law Firm
510 W. Williams Street
Apex, NC 27502
(919) 362-8873
dan@stamlawfirm.com
Counsel for Petitioner
Jill Schnabel Jackson
Jackson Family Law
3801 Computer Dr. #204
Raleigh, NC 27609
(919) 576-2450
jill@j acksonfamilylaw .com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

1 Cincinnati, Ohio 45249

Washington, DC 20005

David S. DeLugas
Counsel of Record
National Association of Parents
Parents USA
1600 Parkwood Cir, Ste. 200
Atlanta, Georgia 30339
(888) 687-4204
david.delugas@parentsusa.org
Counsel for Amicus Curiae

Inc.

D/B/A

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 7, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

